<html>
<title> - RAPID DNA ACT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


.                             
                           RAPID DNA ACT

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                 HOMELAND SECURITY, AND INVESTIGATIONS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                H.R. 320

                               __________

                             JUNE 18, 2015

                               __________

                           Serial No. 114-25

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://judiciary.house.gov 
       
                               _____________
                               
                          U.S. GOVERNMENT PUBLISHING OFFICE
95-120 PDF                    WASHINGTON : 2015                          
                      
________________________________________________________________________________________         
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b5d2c5daf5d6c0c6c1ddd0d9c59bd6dad89b">[email&#160;protected]</a>  
       
         


      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

Subcommittee on Crime, Terrorism, Homeland Security, and Investigations

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman

                  LOUIE GOHMERT, Texas, Vice-Chairman

STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            PEDRO R. PIERLUISI, Puerto Rico
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TREY GOWDY, South Carolina           KAREN BASS, California
RAUL LABRADOR, Idaho                 CEDRIC RICHMOND, Louisiana
KEN BUCK, Colorado
MIKE BISHOP, Michigan

                     Caroline Lynch, Chief Counsel

                  Joe Graupensperger, Minority Counsel
                            C O N T E N T S

                              ----------                              

                             JUNE 18, 2015

                                                                   Page

                                THE BILL

H.R. 320, the ``Rapid DNA Act''..................................     2

                           OPENING STATEMENTS

The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Ranking Member, Subcommittee on 
  Crime, Terrorism, Homeland Security, and Investigations........     7

                               WITNESSES

Amy S. Hess, Executive Assistant Director of Science and 
  Technology, Federal Bureau of Investigation
  Oral Testimony.................................................     9
  Prepared Statement.............................................    12
Jody Wolf, Assistant Crime Laboratory Administrator, Phoenix 
  Police Department Crime Laboratory, President, American Society 
  of Criminal Laboratory Directors
  Oral Testimony.................................................    18
  Prepared Statement.............................................    20
Natasha S. Alexenko, Founder, Natasha's Justice Project
  Oral Testimony.................................................    22
  Prepared Statement.............................................    24

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Ranking 
  Member, Subcommittee on Crime, Terrorism, Homeland Security, 
  and Investigations.............................................     7
Prepared Statement of the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................    29

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable F. James Sensenbrenner, Jr., 
  a Representative in Congress from the State of Wisconsin, and 
  Chairman, Subcommittee on Crime, Terrorism, Homeland Security, 
  and Investigations.............................................    37
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................    38


                             RAPID DNA ACT

                              ----------                              


                        THURSDAY, JUNE 18, 2015

                        House of Representatives

                   Subcommittee on Crime, Terrorism, 
                 Homeland Security, and Investigations

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 10:11 a.m., in 
room 2141, Rayburn House Office Building, the Honorable F. 
James Sensenbrenner, Jr. (Chairman of the Subcommittee) 
presiding.
    Present: Representatives Sensenbrenner, Goodlatte, Chabot, 
Buck, Jackson Lee, and Conyers.
    Staff Present: (Majority) Christopher Grieco, Counsel; 
Allison Halataei, Parliamentarian & General Counsel; Scott 
Johnson, Clerk; (Minority) Joe Graupensperger, Minority 
Counsel; Tiffany Joslyn, Deputy Chief Counsel; Kurt May, 
Subcommittee Detailee; Eric Williams, Subcommittee Detailee; 
and Veronica Eligan, Professional Staff Member.
    Mr. Sensenbrenner. The Subcommittee will be in order. 
Without objection, the Chair will be authorized to declare 
recesses of the Subcommittee during votes in the House.
    Because we're supposed to have votes in about 30 minutes, 
the Chair will forego his opening statement. We'll ask the 
other Members not to make opening statements so we can get to 
the witnesses, because Representative Jackson Lee has got a 
hard departure time at 11:30. And I think after the first votes 
we won't be able to get back until that.
    [The bill, H.R. 320, follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Ms. Jackson Lee. Mr. Chairman.
    Mr. Sensenbrenner. The gentlewoman from Texas.
    Ms. Jackson Lee. This is a very important hearing. I do 
have an engagement that I will yield a couple of minutes for 
the importance of this hearing. And I thank you so very much 
for your courtesies. I would like to have a very brief moment 
to make a brief statement about this hearing and put the rest 
of my statement into the record.
    Mr. Sensenbrenner. Without objection.
    Ms. Jackson Lee. Thank you so very much, Mr. Chairman.
    First of all, I want to thank you for this stated 
commitment to the criminal justice reform and the idea of 
moving hearings forward and legislation forward.
    I welcome this distinguished panel, and particularly their 
thoughts on the role that rapid DNA can play in aiding sexual 
assault victims and individuals who've been wrongly convicted. 
I've worked on this issue, and in fact have legislation that we 
hope will be modified enough to join this particular bill.
    Finally, my great State of Texas recognized this massive 
problem and passed legislation requiring law enforcement 
agencies to test all untested rape kits in their storage 
facilities. I've worked with the city of Houston and encouraged 
the city of Houston, one, to invest in a new DNA lab, and as 
well be concerned about these issues.
    I'd like to ask unanimous consent for the rest of the 
statement to be put into the record.
    Mr. Sensenbrenner. Without objection.
    [The prepared statement of Ms. Jackson Lee follows:]
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
 Representative in Congress from the State of California, and Ranking 
   Member, Subcommittee on Crime, Terrorism, Homeland Security, and 
                             Investigations
    Thank you, Mr. Chairman. As the Ranking Member of the Subcommittee 
on Crime, Terrorism, Homeland Security, and Investigations, I extend my 
gratitude to you for convening a hearing on this critically important 
topic.
    I welcome our distinguished panel of witnesses and look forward to 
their testimony, in particular their thoughts on the role that rapid 
DNA can play in aiding sexual assault victims and individuals who have 
been wrongly convicted.
    DNA technology has revolutionized the criminal justice system by 
significantly decreasing the amount of time it takes law enforcement to 
investigate and prosecute criminal offenders.
    Equally important, DNA technology has effectively led to the 
exoneration of innocent suspects, and has freed men and women who were 
convicted of crimes they did not commit.
    Due to the effectiveness of DNA technology, there has been 
increased demand for its use.
    This demand is good, but it has resulted in a substantial backlog 
of DNA evidence collected from sexual assault victims--known as ``rape 
kits''--nationwide. And the backlog is growing.
    Backlogged evidence is neither processed in forensic laboratories 
nor is it entered into the FBI's Combined DNA Index System (CODIS). 
This means law enforcement may have in its possession evidence that can 
prevent future crime, but that evidence is instead collecting dust.
    Reducing backlogs of untested DNA evidence is vitally important to 
survivors of sexual violence, as I'm confident Ms. Natasha Alexenko 
(Alex-ANKO) will attest to today.
    Because DNA evidence plays a critical role in identifying rapists 
and other violent criminals, it is crucial that it be examined in a 
timely manner.
    This committee, with my co-sponsorship, worked diligently to 
reauthorize the Debbie Smith Act last Congress.
    This Act provides funding to handle the hundreds of thousands of 
rape kits that are sitting in evidence rooms awaiting processing.
    It is completely unacceptable for DNA evidence from sexual assaults 
to sit untested for months--or longer--while rapists remain free to 
harm other potential victims.
    My great state of Texas recognized this massive problem and passed 
legislation requiring law enforcement agencies to test all untested 
rape kits in their storage facilities.
    As of 2013, Texas officials estimated there to be approximately 
20,000 untested kits statewide. Out of the 20,000 untested kits, 6,663 
were in the greater Houston area.
    I am pleased to report that as of February of this year, Houston 
completed testing all 6,663 rape kits and uploaded the results to 
CODIS. Houston was able to do this using $4.4 million in federal grant 
and city funding.
    To-date, the testing has yielded 850 matches in CODIS and resulted 
in the prosecution of 29 criminal offenders.
    In addition to delaying justice for rape survivors, the backlog 
halts the exoneration of innocent people and keeps the wrongfully 
convicted behind bars.
    For example, Michael Phillips of Dallas spent 12 years of his life 
in prison for a crime he did not commit.
    At the age of 57, Mr. Phillips was a registered sex offender, 
wheelchair-bound from sickle cell anemia, and residing in a nursing 
home when he received news that Dallas County prosecutors established 
his innocence through DNA evidence.
    Mr. Phillips was the first person exonerated through the use of 
systematic DNA testing, which was proactively conducted by the 
prosecutor's office--without a request by Mr. Phillips.
    Although Mr. Phillips knew he was innocent, he pled guilty anyway 
as part of a plea bargain.
    After Mr. Phillips' innocence was established, he stated that when 
he was convicted ``. . . it felt like slavery was still going strong 
for me . . . the deck was stacked against me from Jump Street--like 
100-to-1.''
    As a strong advocate for victims of rape, and for persons who have 
been unjustly made to answer for crimes they did not commit, I am 
pleased that we are examining increased use of Rapid DNA.
    Rapid DNA machines are automated and complete work that otherwise 
must be done in a more time-consuming manner by labs.
    Again, thank you for holding this important hearing and I look 
forward to the testimony of our distinguished panel of witnesses.
                               __________

    Ms. Jackson Lee. I thank you. In the second that I have, I 
would like to indicate that we all have been overwhelmed by the 
horrific tragedy of persons being killed in their house of 
worship. I was moved to tears late last evening and continue to 
be, as I'm well aware of the African Methodist Episcopal 
Church. We pray for their families, and at this time we pray 
for the solution and we pray for the fact that we all can live 
in this great Nation in peace and recognition of each other's 
human dignity.
    I'm going to take a moment and would ask for a moment of 
silence for those who were lost in South Carolina.
    Mr. Sensenbrenner. Without objection.
    Ms. Jackson Lee. Thank you very much.
    Mr. Sensenbrenner. Okay. We have a very distinguished panel 
today, and I'll begin by swearing in our witnesses before 
introducing them.
    If you would please all rise.
    Do you solemnly swear that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show that all of the witnesses answered in 
the affirmative.
    I'm going to be giving an abbreviated introduction of each 
of the witnesses. Then you'll be recognized for 5 minutes.
    Amy Hess is the executive assistant director of science and 
technology at the FBI. Ms. Jody Wolf is the assistant crime 
laboratory administrator for the Phoenix Police Department 
Crime Laboratory. And Ms. Natasha Alexenko is the founder of 
Natasha's Justice Project, which is a nonprofit whose mission 
is to eliminate the Nation's rape kit backlog crisis.
    Without objection, your written testimony will be put in 
the record, and each of you will be recognized for 5 minutes. 
And I think you know what the green, yellow, and, particularly, 
the red light mean.
    Ms. Hess.

   TESTIMONY OF AMY S. HESS, EXECUTIVE ASSISTANT DIRECTOR OF 
    SCIENCE AND TECHNOLOGY, FEDERAL BUREAU OF INVESTIGATION

    Ms. Hess. Thank you. Good morning, Chairman Sensenbrenner, 
Ranking Member Jackson Lee, and Members of Subcommittee. Thank 
you for the opportunity to provide an update today on our 
efforts relating to rapid DNA and for your continued support of 
the men and women of the FBI.
    Over the last three decades we've been developing our 
Combined DNA Index System, or CODIS program, in order to better 
assist Federal, state, local, and international forensic 
laboratories. As new DNA technologies have emerged, we have 
been vigilant in demanding they provide the quality and 
integrity expected of a nationwide law enforcement database, 
and must be implemented pursuant to the FBI's Quality Assurance 
Standards in accordance with the Federal DNA Identification Act 
of 1994.
    One of the underlying concepts of CODIS was to create a 
database of the DNA profiles of convicted offenders and use it 
to identify suspects for crimes in which there are no suspects. 
But this tool, which was initially expected to benefit the 
investigation of sexual assault cases, has proven to have 
broader applications. States observed this firsthand and sought 
to expand coverage of their databases beyond convicted sexual 
offenders; first, to individuals convicted of other violent 
felonies, then to all felony offenders, and now to persons 
arrested for sexual offenses, or in many states persons 
arrested for any felony offense.
    The FBI Laboratory works closely with the DNA and CODIS 
communities, as well as other stakeholders, such as laboratory 
accrediting bodies, law enforcement, defense attorneys, and 
prosecutors, to evaluate new technologies and procedures. Any 
efforts to enhance CODIS involve significant consultation with 
the affected stakeholders, software development, testing, 
evaluation, implementation planning, and user training.
    Today CODIS is installed in approximately 200 forensic DNA 
laboratories nationwide. The FBI provides the CODIS software to 
laboratories which are accredited, which follow the FBI's 
Quality Assurance Standards, that are audited annually, and 
that agree to comply with the Federal DNA Act for participation 
in the National DNA Index System, or NDIS.
    To date, CODIS has generated over 285,000 investigative 
leads for law enforcement. All 50 States, Puerto Rico, the U.S. 
Army's Criminal Investigation Laboratory, and the FBI 
contribute DNA records to and participate in NDIS, which 
contains almost 14 million offender or arrestee DNA records and 
over 630,000 forensic or crime scene DNA records.
    The FBI uses the term ``Rapid DNA analysis or technology'' 
to describe the fully automated, hands-free process of 
developing a CODIS Core Short Tandem Repeater, or STR, profile 
from a reference sample buccal swab. The process consists of 
automated extraction, amplification, separation, detection, and 
allele calling without human intervention. Our objective is to 
generate a CODIS-compatible DNA profile and to search these 
profiles within 2 hours against unsolved crime profiles while 
an arrestee is in police custody.
    Rapid DNA technology has been designed for use within and 
outside the forensic DNA laboratory, as the instruments are 
self-contained machines which require no human intervention 
beyond the loading of the DNA samples and analysis cartridges.
    With legislative authority, the FBI envisions Rapid DNA 
integration occurring in two phase. Phase one involves the 
booking station CODIS enrollment and searching of Rapid DNA 
profiles, which will eliminate the weeks to months it currently 
takes for arrestee samples to be mailed, received, inventoried, 
and analyzed for registration in the CODIS system. Phase two is 
the hit notification to booking stations and investigative 
agencies, which is expected to conserve valuable investigative 
resources and identify perpetrators before they are released 
back into their communities at the completion of the normal 
booking process.
    Since 2008 we've partnered with the Departments of Defense 
and Homeland Security in the development of point-of-collection 
DNA analysis for the production of CODIS DNA profiles within a 
2-hour period. In addition, the Scientific Working Group on DNA 
Analysis Methods empaneled a Rapid DNA Committee to evaluate 
whether additional quality measures were needed for records 
produced by Rapid DNA instruments. Based on their 
recommendations, the FBI issued an addendum to our Quality 
Assurance Standards to provide a foundation for the 
implementation of Rapid DNA within accredited forensic DNA 
laboratories.
    The Federal DNA Act currently requires that DNA records 
maintained at NDIS be generated by accredited laboratories in 
compliance with the FBI's Quality Assurance Standards. But 
Rapid DNA technology has been designed for use by law 
enforcement agencies at the point of booking. Thus, statutory 
authorization for the use of FBI-approved Rapid DNA instruments 
by criminal justice agencies would be needed before the DNA 
records generated at police booking stations can be searched at 
NDIS.
    In addition to the legislative, validation, testing, 
evaluation, standards, and software issues, we must address 
issues relating to NDIS approval and certification of the 
instruments, as well as training of law enforcement personnel. 
These issues must be resolved prior to implementation so this 
new technology is used in a manner which maintains the quality, 
integrity, and sterling reputation of our database.
    In conclusion, CODIS has demonstrated its value as an 
investigative tool for 25 years, and we are committed to 
maintaining its effectiveness. The FBI is also committed to 
identifying new technologies which could enhance the CODIS 
program, and we are pursuing Rapid DNA technology because we 
believe the efficiencies obtained from the real-time analysis 
of an arrestee's DNA sample has tremendous potential to improve 
public safety and focus law enforcement investigative 
resources.
    Thank you.
    [The prepared statement of Ms. Hess follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
                        __________
                        
    Mr. Sensenbrenner. Thank you.
    Ms. Wolf.

      TESTIMONY OF JODY WOLF, ASSISTANT CRIME LABORATORY 
  ADMINISTRATOR, PHOENIX POLICE DEPARTMENT CRIME LABORATORY, 
  PRESIDENT, AMERICAN SOCIETY OF CRIMINAL LABORATORY DIRECTORS

    Ms. Wolf. Good morning, Chairman Sensenbrenner, Ranking 
Member Jackson Lee, and Members of the Committee. My name is 
Jody Wolf, and I am the president of the American Society of 
Crime Laboratory Directors. On behalf of the 600 laboratory 
directors represented by ASCLD and over 15,000 crime laboratory 
practitioners represented by the Consortium of Forensic Science 
Organizations, I would like to thank you for the opportunity to 
discuss the topic of Rapid DNA technology and provide comments 
on House Resolution 320, the Rapid DNA Act of 2015.
    The introduction of Rapid DNA technology has been an 
exciting one for the forensic science community. Several of our 
members helped with the initial technology development, and 
several more are currently participating in pilot programs to 
evaluate how best to implement this novel technology within the 
criminal justice system.
    Rapid DNA is designed to deliver a DNA profile from samples 
such as known reference standards within a few hours, and is 
most commonly associated with the placement in law enforcement 
booking stations for the analysis of arrestee samples and entry 
into CODIS. The potential of this technology is promising, and 
both ASCLD and CFSO support the continued development of this 
novel application.
    As I stated earlier, several of our members are currently 
participating in pilot programs and validation studies to 
develop best practices for the widespread deployment of these 
systems. Overviews of these programs and studies are provided 
in the written testimony offered to this Committee. As 
policymakers anticipate the implementation of this technology, 
it is critical the following issues are considered.
    First, rigorous validations performed by crime laboratory 
scientists and researchers are critical to demonstrating the 
efficacy of this technology and not marketing materials. 
Currently, these devices are best suited for use with single-
source, high-quantity biological samples such as reference 
standards of blood or saliva from known individuals, thus 
limiting its usefulness for complex crime scene samples of more 
than one person.
    These instruments also currently can't analyze trace 
amounts of DNA. Consequently, these instruments are not 
designed for the routine testing of evidence types found in 
rape kits and will not help with the reduction of rape kit 
backlogs.
    Secondly, this technology must be compliant with current 
industry standards and guidelines as provided by the FBI and 
the Scientific Working Group on DNA Analysis Methods, thus 
ensuring its operability with the CODIS database. SWGDAM and 
the FBI Quality Assurance Standards for Forensic DNA Testing 
Laboratories have provided best practices and standards for 
almost 20 years. ASCLD looks to these groups for guidance with 
Rapid DNA technologies, and we encourage vendors to seek full 
compliance with these standards or any new standards or 
guidelines developed by this group.
    Third, ASCLD recommends that a careful cost-benefit 
analysis be performed prior to its widespread implementation. 
The purchase price for most Rapid DNA devices currently exceed 
$200,000, and the estimated per sample cost is $250. By 
comparison, FORESIGHT, a national study of crime laboratory 
operational costs, led by the West Virginia University, 
reported the median cost is less than $85 per sample using 
traditional laboratory methods for the DNA analysis of a 
database or known reference standard.
    Clearly, the current costs of traditional DNA databasing is 
significantly less than using the Rapid DNA technology. As a 
result, funding levels for existing grant programs aimed at 
increasing analytical capacity for crime laboratories and 
reducing backlogs will need to be increased to allow crime 
laboratories and their stakeholders the opportunity to best 
meet the needs of their jurisdictions for DNA analysis.
    Finally, and perhaps most importantly for crime 
laboratories and practitioners, is the technology transfer from 
the vendors to operational facilities. While the FBIis 
currently working on supporting the IT infrastructure necessary 
for its implementation in booking stations, it is important 
that other measures are also taken to validate this technology 
in the community.
    ASCLD has been at the forefront of these activities and 
presented three Rapid DNA webinars addressing these topics 
during the past year, including Rapid DNA presentations during 
its annual symposiums, and has charged its Forensic Research 
Committee with developing guidance and best practices for its 
membership.
    ASCLD and CFSO support Rapid DNA legislation, with 
revision, in order to ensure the existing integrity and 
security of the National DNA Database system is maintained, to 
authorize the FBI as the Federal law enforcement agency tasked 
with oversight of CODIS and establishing forensic DNA Quality 
Assurance Standards, and include a definition of Rapid DNA 
analysis and instruments utilizing NDIS-approved analytical 
platforms, chemistries, and expert interpretation systems.
    As we reviewed H.R. 320, we had concerns with some of the 
definitions, the practical implementation of blind proficiency 
testing, and the protection of confidential information within 
the database. ASCLD and CFSO stand ready to aid in moving the 
legislation forward, once modified, for the universal adoption 
of this technology.
    In closing, Mr. Chairman, we encourage the development of 
partnerships between law enforcement agencies, crime 
laboratories, and regulatory agencies for a careful and well 
thought out approach to the implementation to this promising 
technology. We believe that a methodical and measured approach 
to its deployment is vital to the criminal justice system in 
order to deliver the best forensic science possible.
    Again, I thank the Committee for its time today, and I 
would be happy to answer any questions.
    [The testimony of Ms. Wolf follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                          __________
                          
    Mr. Sensenbrenner. Thank you.
    Ms. Alexenko.

          TESTIMONY OF NATASHA S. ALEXENKO, FOUNDER, 
                   NATASHA'S JUSTICE PROJECT

    Ms. Alexenko. Thank you, Chairman Sensenbrenner, Ranking 
Member Jackson Lee, and Members of the Committee. I cannot tell 
you how honored and humbled I am to be here today before you 
speaking and sharing my testimony. I'm here, of course, 
representing myself, but I also bring with me the strength and 
determination of so many survivors of sexual assault who are 
aware I am here speaking before you today, and we all ask the 
same thing, and that is please use our cases as a cautionary 
tale so that we can end this violence and to use anything that 
we can to make our country a safer place.
    I'm a survivor of sexual assault. At 20 years old I was 
raped, robbed, and sodomized at gunpoint by an unknown 
assailant. It was devastating. Not only did it devastate me, 
but it changed my life forever. It affected my mother, the 
individuals that lived in my apartment building, my future 
friends. It basically completely altered the course of my life.
    I submitted to a rape kit test, which is basically a very 
invasive gynecological exam. I knew that it was my duty as a 
citizen to aid law enforcement in any way that I could to put 
this perpetrator behind bars. Unbeknownst to me, my rape kit 
sat collecting dust for 9\1/2\ years, along with 17,000 other 
rape kits in New York City. And we know now this is just the 
tip of the iceberg, certainly a situation that's occurring 
throughout the Nation.
    But what happened in the nearly 15 years before the man 
that raped and robbed me, Victor Rondon, was caught, when his 
profile was finally, after nearly 15 years, uploaded to CODIS 
and a match was made to the DNA in my rape kit, this man was a 
mobile serial predator. He committed a variety of crimes. He 
wasn't a specialist. He didn't stick to sexual assault. He was 
as burden on law enforcement, on human dignity, he was a burden 
on taxpayers, all because we did not catch him in time.
    And essentially this story remains true for the same of all 
my other survivors that I know, and that is criminals are 
exploiting us in more ways than one, and serial predators move 
to avoid, using our time delay as a weakness. They are using 
our time delay to get away with things. Victor Rondon committed 
crimes in eight different States across this country and 
created a host of victims in his wake. He's currently behind 
bars, thanks to the dedication of law enforcement, and I'm 
proud to have been the complaining witness and testify against 
him. But I will let you know that after all those years, even 
15 years later, the first time I saw Victor Rondon in all that 
time, I fainted at the sight of him, because to a survivor time 
has many meanings. It stands still in one way, and 30 days can 
seem like a very long time.
    I feel like public safety should always take priority. I 
feel that we have a way to eliminate a lot of the crimes that 
are occurring. I feel, again, that if you don't take my tale as 
a cautionary tale, then it was all for nothing. It's so 
important for me to share my story. It's not easy. It's not 
easy to stand here and talk about the fact that I was raped, 
robbed, and sodomized, not a story that I enjoy telling, but if 
it helps take one perpetrator off the street, then it's 
certainly worth it.
    Now, of course I'm not a law enforcement professional, I'm 
not a scientist, and I do not possess a law degree, and I 
cannot speak specifically to the language in this provision. 
But what I can tell you as a survivor is DNA testing is 
essential and that time matters. For nearly 15 years I was on a 
constant state of high alert knowing that this violent criminal 
was walking the streets. And I have to tell you that I faced a 
lot of guilt thinking that I didn't 100 percent do my part for 
the citizens of this country to find this perpetrator and put 
him way.
    Today I'm here to talk about the other side of the DNA 
Database system and crucial new technologies that may reduce 
the amount of time needed to bring answers to victims of crime 
and safety to the citizens of this country. I hope that you 
will take this seriously. I have complete faith in the FBI, and 
I know that their testing methodology is stringent. We have to 
respect this technology. But it's important to implement 
methods that will no longer delay justice.
    I thank you for your time, and, once again, I am very 
honored to be here today.
    [The testimony of Ms. Alexenko follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]   
                             __________
                               
    Mr. Sensenbrenner. Thank you for your very moving 
testimony.
    We will now have questioning of the witnesses under the 5-
minute rule. The Chair will withhold his questions to see if we 
have time at the end.
    The gentleman from Virginia, Mr. Goodlatte, is recognized 
first.
    Mr. Goodlatte. Thank you, Mr. Chairman. Thank you for 
holding this hearing and for introducing H.R. 320, the Rapid 
DNA Act. I'll submit my opening statement for the record as 
requested, but I do want the witnesses and the other 
participants in this hearing to know how important I think it 
is that we address this issue.
    [The prepared statement of Mr. Goodlatte follows:]
Prepared Statement of the Honorable Bob Goodlatte, a Representative in 
  Congress from the State of Virginia, and Chairman, Committee on the 
                               Judiciary
    Thank you Chairman Sensenbrenner for holding this hearing and for 
introducing H.R. 320, the ``Rapid DNA Act.''
    We work on many important issues at the Judiciary Committee, but 
there are few issues more important than making sure that innocent 
arrestees are promptly released and that culpable suspects are not re-
released to strike again. Rapid DNA has the potential to do both and, 
as such, can be an important tool for law enforcement and a key 
component of this committee's ongoing efforts on criminal justice 
reform.
    Under current technology, it is possible to test the DNA of 
arrestees as soon as they are in custody, and determine within hours 
whether they match the DNA profile from the crime scene, or from other, 
earlier crimes. This technology would also enable police to check the 
federal DNA database to see if an arrestee matches the DNA profile from 
previous crimes for which a DNA sample exists, but no known suspect has 
been identified. Rather than waiting weeks for a DNA sample to be 
processed and risk releasing a suspect back into the public to 
potentially re-offend, police would be able to determine at initial 
booking if the suspect is a person of interest in other crimes.
    I look forward to hearing from the FBI about how this technology 
has progressed, what steps need to be taken to implement this 
technology, and whether this legislation is necessary to permit the use 
of this technology. I also understand that we have a member on the 
panel from an accredited lab that has used Rapid DNA technology in her 
lab. I look forward to hearing about her experience with the technology 
as well as hearing about her lab's experience with DNA identification 
samples.
    Finally, I look forward to hearing from Ms. Natasha Alexenko. I 
know she has been at the forefront of DNA issues as they apply to 
victims of sexual assault. This committee has worked tirelessly to fund 
rape kit testing to reduce the backlog, yet to the frustration of 
everyone on this committee, the backlog still remains. This is 
unacceptable. While Rapid DNA cannot be used at this time for forensic 
analysis, such as rape kits, I believe that using Rapid DNA for 
identification purposes could help clear up state labs to focus their 
efforts on forensic analysis, including rape kits testing.
    Thank you all for your time in appearing before us to discuss this 
important issue, and for your insight on this technology.
                               __________

    Mr. Goodlatte. Ms. Wolf, let me start with you. Can you 
speak about the average turnaround time in your office for DNA 
identification samples versus forensic samples, including how 
long does each sample take to actually analyze, and do you know 
what those numbers are like on a national basis?
    Ms. Wolf. Thank you, Mr. Goodlatte. That's a very 
interesting question that you've proposed, and it's one that we 
deliberate over at great length in the forensic science 
community. And many of our members participate in the FORESIGHT 
study I mentioned in my opening remarks where we partner with 
the West Virginia University to look at those very issues.
    Within the Phoenix Police Department laboratory, we are not 
a databasing laboratory which is responsible for analyzing 
arrestee or offender samples, and so that's a different 
question than comparing it to the analysis of forensic samples. 
And so I'll answer your question in a general nature for the 
technology that we have available for databasing.
    Typically the platform that we use is called an ABI 3500 
xL, which has the capability of processing 24 samples in one 
injection. If you use a direct amplification kit, which allows 
us to increase the efficiency or allows us to speed up the time 
line in which we can process those database samples or 
reference standards, that run of 24 samples takes about 45 
minutes. The data has to be taken off the system, and if you're 
utilizing an expert interpretation software system, then you 
can create or review those profiles and create an entry into 
the CODIS database.
    So if we look at a comparison between the technology of 
Rapid DNA to existing functionality of systems that are already 
NDIS approved, an ABI 3500 has the capability in a full run to 
run about 90 samples, and then you add on controls and 
standards. That would take about 7 to 8 hours utilizing direct 
amplification, review using an expert system software----
    Mr. Goodlatte. I'm going to cut you short. Would this 
legislation help to speed this up a lot?
    Ms. Wolf. Well, comparing 90 samples utilizing Rapid DNA 
would take almost 27 hours. Processing it using a traditional 
existing technology would take 7 to 8 hours. So the limitation 
with the Rapid DNA is that you can only run five samples at a 
time, whereas on current technology we can run 24 samples at a 
time. To process 90 samples utilizing Rapid would take 27 
hours. Using existing technology would take 7 to 8. Same 
result.
    Mr. Goodlatte. So do you think that this is a good thing 
for people to have the option here or not?
    Ms. Wolf. It depends on your goal. The advantage that Rapid 
DNA has is that you have that answer while the person is still 
in the booking station. With traditional databasing, there is a 
delay because you have to transport the sample from point of 
collection to a laboratory for analysis.
    Mr. Goodlatte. Okay. Let me interrupt. I have a couple 
questions for Ms. Hess and Ms. Alexenko.
    Ms. Hess, is this bill likely to change the amount of DNA 
testing going on or just the speed and source of that testing?
    Ms. Hess. Yes, sir. Actually right now we see the 
efficiencies in the speed of the testing, not in the amount. 
The amount of testing clearly depends on how the States have 
enacted laws as to whether they are drawing from convicted 
offenders or arrestees, individuals charged or not charged with 
crimes, but arrested. So the amount doesn't change, but the 
speed will.
    Mr. Goodlatte. And, Ms. Alexenko, it is good to see you 
again, and I am very pleased that you keep coming back to this 
Committee to stand up for this very important thing. And you 
were very helpful to us with the Debbie Smith reauthorization, 
and I'm glad to have you back here today as well.
    From your perspective, are we making progress on the rape 
kit backlog problem?
    Ms. Alexenko. You know, I really have come to a recent 
moment of clarity, and really the rape kit backlog is really a 
symptom of a bigger disease. And certainly we're making 
progress. There's just been so much--the reauthorization of 
Debbie Smith, the 41 million--I mean, it is amazing the 
commitment our leaders are showing with different legislation.
    We still have a long way to go. I think that a lot more 
understanding needs to be made on criminals, on how important 
it is to get these rape kits tested. And I think it really 
needs a shift, a paradigm shift, in the understanding of the 
necessity of this technology.
    Mr. Goodlatte. Well, thank you. And I hope that you keep 
working with us so we can see that shift take place.
    Mr. Chairman, thank you very much. I yield back.
    Mr. Sensenbrenner. Thank you.
    The gentleman from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Mr. Chairman.
    I want to begin by thanking my colleague, Sheila Jackson 
Lee, for having a moment of silence in connection with the 
tragedy that just occurred, and I'm grateful to her for that.
    This is an amazing set of witnesses here. And I'm trying to 
determine after the few responses that have been given so far 
whether we're moving ahead or just merely providing options. 
And I think I'll start with Ms. Wolf.
    What is your view, is this just something we've got to find 
out if it works better and is more efficient and we're at a 
preliminary stage of development where we're not really sure 
yet?
    Ms. Wolf. It's very early on in the testing phase. We have 
commercial products that are available for evaluation, and many 
of our members are currently looking at them.
    One of our members that probably has the most mature 
program is from the Arizona Department of Public Safety, and 
they began working with a program in 2013 and developed two 
different types of initiatives. One was an officer field 
testing program and another to test arresting offender samples 
within their laboratory. They were able to successfully 
validate the program, and it is operational currently.
    The spectrum, however, is wide, and we have other members 
that are currently in the process of trying to complete a 
validation study in which they have experienced challenges in 
the completion of those studies. And some of the issues that 
they have found with the technology are unacceptable failure 
rates and precision concerns. But they are working very closely 
with the vendors to overcome those challenges and expect to be 
successful in completing the validation studies.
    We fully expect that the technology is promising, has full 
potential, and will continue to improve so that it can be fully 
operational and provide the best assistance to the criminal 
justice system as possible.
    Mr. Conyers. So it's a good beginning we're off to.
    Ms. Alexenko, your testimony, of course, is gripping 
whenever it's given by yourself. What do you think right now 
candidly about the Rapid DNA testing? Do you have hopes for it, 
or do you have some secret reservations about it? Please tell 
us.
    Ms. Alexenko. Certainly I think that it's a step in a good 
direction. I don't necessarily think that this is going to 
solve the rape kit backlog per se. But as was mentioned 
earlier, I mean, we have an opportunity to quickly identify 
someone, an offender's DNA very quickly, and I think that is so 
important. In my case it took 15 years for someone to upload my 
perpetrator's DNA. Rapid gives us the ability as they are 
housed to immediately, as was mentioned earlier, instead of 
going to a laboratory, you get that result immediately up into 
CODIS and see if there's a match.
    Mr. Conyers. Thank you.
    Ms. Alexenko. So I think it's important.
    Mr. Conyers. Thank you so much.
    Ms. Hess, with your background with the FBI, where do you 
think the future lies, and what does it have in store for us 
with the Rapid DNA machines?
    Ms. Hess. Yes, sir. I would say that this has tremendous 
potential, and certainly from the perspective of being able to 
take this technology and take it out of the laboratory into a 
booking station. But with that comes a lot of responsibility, 
as was previously outlined, so that any officer would be able 
to use this equipment to the standards that are currently 
employed by the forensic laboratories.
    Mr. Conyers. Well, I thank you all. I think this is an 
important hearing. And I will look forward to seeing some 
improvement in this.
    I presume DNA machines are admissible as evidence in 
criminal trials. Is there any question about that?
    Ms. Hess. I'm sorry. I didn't hear the question.
    Mr. Conyers. Do you agree that Rapid DNA machines can be 
used as evidence in criminal trials?
    Ms. Hess. Currently, as used in forensic laboratories with 
the human intervention, that would be the case. However, they 
are not yet mature enough to be used independently without that 
human intervention. But that is the goal.
    Mr. Conyers. Okay. Thank you very much, Mr. Chairman.
    Mr. Sensenbrenner. The gentleman's time has expired.
    I have noticed that we are in for at least two votes on the 
floor, which should last 45 minutes. Let me inquire if anybody 
wishes to come back and ask questions after the votes are over 
with, which would probably be around 11:30.
    Mr. Chabot. I can get them in now if that's okay.
    Mr. Sensenbrenner. Pardon?
    Mr. Chabot. Couldn't we get our questions in before we 
leave, Mr. Chairman?
    Mr. Sensenbrenner. If you are quick, because I would like 
to leave by the time of the second bell, and the gentlewoman 
from Texas wants to do it as well.
    Mr. Chabot. Okay. I'll try to be quick.
    Mr. Sensenbrenner. Okay. The gentleman is recognized.
    Mr. Chabot. Thank you. I would like to reiterate the 
comments of my distinguished colleague from Michigan that we 
thank Ms. Jackson Lee for offering a moment of silence. A 
horrific, horrific event that took place. Although I wasn't 
here for the moment of silence, I appreciate that. I'd like to 
express that.
    Ms. Hess, is there a current number of total outstanding 
rape kits nationally, approximate? And if so, do you know what 
the number is?
    Ms. Hess. Yes, sir. So as was previously mentioned, there 
are thousands of backlogged sexual assault kits across the 
Nation.
    Mr. Chabot. Thousands, did you say?
    Ms. Hess. Yes.
    Mr. Chabot. That's a pretty vague number really. I think 
you just got a sheet there?
    Ms. Hess. We don't know the exact number at this time, but 
I can get that information.
    Mr. Chabot. Okay. That's fine. Is there a State-by-State 
breakdown that's available? If you don't have it, is there 
somewhere we could get access to something like that? Like, I 
would like to know what Ohio is since that's my State.
    Ms. Hess. I believe we could get that information.
    Mr. Chabot. Okay, if we could get that.
    Mr. Sensenbrenner. Without objection, it will be included 
in the record.
    Mr. Chabot. I appreciate that. Thank you.
    Ms. Wolf, you mention in your testimony that several of 
your members are currently participating in pilot programs and 
validation studies to develop best practices for the widespread 
deployment of these systems. Could you share briefly any 
progress that you've reached at this point. And, again, kind of 
brief.
    Ms. Wolf. Certainly. Our membership, as I mentioned during 
my opening remarks, was not only involved in the development of 
the technology, but is currently working to evaluate how well 
it can work in an operational setting.
    And so, as I mentioned, one of the most mature programs 
that our members are working on is out of the Arizona 
Department of Public Safety's program that they began working 
on in 2013. They've completed a validation study of the 
instrumentation and have initiated two different types of 
programs. One is with a field officer testing program, and 
another is with processing arresting offender samples within a 
crime laboratory setting, including that human intervention 
part of it, before the profiles are uploaded to CODIS.
    We have other members that have been working on it since 
2014. The California Department of Justice is currently working 
to complete their validation study of their programs. They have 
encountered some challenges, but they do anticipate overcoming 
those challenges. But, again, those challenges go back to 
unacceptable failure rates of the runs and as well as precision 
concerns during the allele calls.
    Mr. Chabot. Okay. If I can cut you off there. Thank you, i 
appreciate that, because I'm trying to be quick.
    Ms. Alexenko, thank you for your bravery in stepping forth 
on this issue and trying to help others that may be in similar 
circumstances. Thank you very much for that.
    How did you learn that the rape kit was sitting there 
untested for 9\1/2\ years?
    Ms. Alexenko. Well, certainly I think things are different 
now, but I didn't discover until 2003, and I just, frankly, 
didn't understand it. I was running under the assumption that, 
of course, my rape kit was tested.
    Mr. Chabot. Who told you? I mean, how did you learn?
    Ms. Alexenko. The prosecutor in the Manhattan County 
Attorney's Office called me and told me: We're testing your 
kit.
    Mr. Chabot. How long was that after the event itself?
    Ms. Alexenko. It was 9\1/2\ years.
    Mr. Chabot. Nine and a half years.
    Ms. Alexenko. So basically to stop the clock on the statute 
of limitations, we had to do a John Doe indictment on the DNA.
    Mr. Chabot. Was this criminal, was he ever in custody 
during that period of time?
    Ms. Alexenko. Many times, yes.
    Mr. Chabot. So logically, if they had tested it and they 
had him in custody, perhaps----
    Ms. Alexenko. Absolutely, absolutely.
    Mr. Chabot. Okay. Thank you.
    I yield back, Mr. Chairman.
    Mr. Sensenbrenner. The gentlewoman from Texas.
    Ms. Jackson Lee. Mr. Chairman, thank you for your 
courtesies.
    And to the witnesses, let me thank you. I think this is 
powerful testimony for the importance of what we're trying to 
do.
    And, Ms. Alexenko, let me thank you for being a friend in 
your time of need, and that is very important because there are 
so many that have the needs that you're expressing, but they 
cannot come. So let me thank you very much.
    Let me quickly go to Ms. Hess. And I want to put into the 
record again, as of 2013, Texas officials estimated there to be 
20,000 untested kits statewide. Out of the 20,000 untested 
kits, 6,663 were in the greater Houston area. We got a $4.4 
million Federal grant that I worked with the city to get, and 
now, as of February of this year, Houston completed testing all 
6,663. I venture to say many had been sitting there for a long 
time.
    So I want to go to Ms. Hess. As I understand the 
legislation, it is to integrate this Rapid DNA testing into the 
system to possibly allow that technology to be used overall so 
that labs can spend their time moving forward on the violent 
murders and the rapes and other elements. Does that fit partly, 
in your understanding?
    Ms. Hess. Ma'am, I'd like to qualify that first by saying 
that, as has been stated here, we are really focusing on known 
samples, on reference samples. So we are focusing on arrestees, 
we're focusing on reference samples, as opposed to crime scene 
or sexual assault kit types.
    Ms. Jackson Lee. Let me just, with the Rapid DNA 
technology, you're saying you're focusing on arrest situations. 
Is that what I understand?
    Ms. Hess. That's correct.
    Ms. Jackson Lee. And that's what's I'm saying. You're 
focusing on arrests and other needs for DNA. The lab then can 
move forward on testing these rape kits and murder, and that's 
what I'm trying to understand from you. Is that my 
understanding?
    Ms. Hess. Yes, ma'am, I understand. So the vision is that 
once these kits, these instruments, are ready to be deployed in 
booking stations, that that will greatly reduce the time and 
the resources needed to devote laboratory time toward the 
processing of arrestee or reference samples. So those resources 
might eventually be used and/or rediverted in the laboratories 
to address the crime scene type of a forensic sample.
    Ms. Jackson Lee. That's what I was trying to clarify for 
this bill. And just one last thing. The FBI Quality Assurance, 
you believe that you could have that quality assurance for this 
new technology?
    Ms. Hess. The Quality Assurance Standards for the known or 
reference samples, yes.
    Ms. Jackson Lee. Under this Rapid DNA testing, you could 
have in place those quality standards?
    Ms. Hess. Yes. We currently do have actually Quality 
Assurance Standards. An addendum actually was in place since 
December for the laboratory, accredited laboratory environment. 
And, yes, that would be our goal for reference samples, 
correct.
    Ms. Jackson Lee. Thank you so very much. Let me finish my 
last two questions.
    Let me go to Ms. Alexenko. What should be the goal in terms 
of the time for analyzing sexual assault kits? What more can we 
do? Nine and a half years, it's unspeakable. But what should we 
be looking to?
    Ms. Alexenko. Well, at present we've been saying 30 days, 
within 30 days, but to be frank with you, it's been way too 
long that we've been saying 30 days.
    Ms. Jackson Lee. I'm with you.
    Ms. Alexenko. I really feel the turnaround time needs to be 
expedited. It's too long to wait. A criminal can certainly flee 
the area, flee the State. And in some cases, if they go from 
one State to another, they may as well have gone to another 
country, there's that little communication between the States.
    So the sooner the better. I would like to see an ideal 
world, I don't know if everyone will agree with me, where it's 
like a quick turnaround time, 1 day. Why not?
    Ms. Jackson Lee. Thank you. We listen to you very keenly.
    Ms. Wolf, let me thank you for your expertise. And so this 
is just a simple question. You gave us the hours, but I just 
want to hear from you as a professional that if time could be 
spent on the violent, the sexual predators, and others, and 
this system can work, would you as a lab professional be 
willing to have that system in place?
    Ms. Wolf. You ask a very good question, Ms. Jackson Lee, 
and it's an interesting answer because not all accredited 
laboratories, while they may participate in CODIS, process 
known standards from arrestees and offenders. Those are 
databasing laboratories. And in particular my laboratory does 
not.
    And so the utilization of Rapid DNA, while it would aid 
investigative information and help further investigations, it 
would not increase capacity for my laboratory. My laboratory is 
solely dedicated to processing casework and forensic samples, 
crime scene samples. And so while there is value in the 
technology, it certainly would not increase capacity within my 
laboratory.
    Ms. Jackson Lee. Let me thank you very much. You have given 
us factual information. We know that it would help in many 
instances. The way your lab is framed, it would continue to do 
its work as it is, but it could help in other areas. Is that my 
understanding of your statement?
    Ms. Wolf. It can certainly provide information that can 
further investigations very quickly by providing that 
information while the individual is still in custody. And so it 
has value. The issue is very complex, and so there are multiple 
facets that need to be addressed. And really what we are 
looking for is to be able to increase capacity both during the 
booking process, as well as on the analytical side in 
laboratories that are processing casework samples.
    Ms. Jackson Lee. With that, Mr. Chairman, thank you so very 
much to the witnesses. With that, Mr. Chairman, I yield back.
    Mr. Goodlatte [presiding]. I want to thank the gentlewoman 
for her very active interest in this matter.
    And I want to assure all the witnesses that we are very 
dedicated to searching for the right answers for how to get 
accurate information as quickly as possible and to work through 
these backlogs as well, but not to delay getting action on new 
cases as they come in. So having a system where state and local 
law enforcement and Federal law enforcement are enabled to do 
both is what our goal is, and if you will work with us, we 
would like to move ahead.
    So thank you all for testifying today.
    Ms. Jackson Lee. Mr. Chairman, would you yield for a 
moment. I just want to put a sentence on the record.
    I have been working on a bill dealing with the DNA focusing 
of those who perpetrate violent acts against children, and I 
hope that we will continue in a discussion with Mr. 
Sensenbrenner, with this Judiciary Committee. This may be a 
vehicle where we can combine some of that interest, because 
there's some data talking about how many times a day a child is 
sexually violated and/or subjected to a violent crime.
    With that, Mr. Chairman, I yield back.
    Mr. Goodlatte. I thank the gentlewoman.
    That concludes today's hearing, and I thank all the 
witnesses for coming. I know some of you came a long way.
    And without objection, all Members will have 5 legislative 
days to submit additional written questions for the witnesses 
or additional materials for the record.
    And this hearing is adjourned.
    [Whereupon, at 10:53 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Prepared Statement of the Honorable F. James Sensenbrenner, Jr., a 
 Representative in Congress from the State of Wisconsin, and Chairman, 
Subcommittee on Crime, Terrorism, Homeland Security, and Investigations
    Good morning, and I would like to welcome everyone to this 
morning's hearing on H.R. 320, the ``Rapid DNA Act.'' I authored this 
legislation to establish a system for integration of Rapid DNA 
instruments into Federal law.
    Rapid DNA is a promising new technology that would allow for the 
almost immediate DNA analysis of an arrestee. Unlike standard DNA 
practices which require sending DNA samples from arrestees out to labs 
with a result taking weeks to ascertain, Rapid DNA results take only a 
few hours and can be done right at the booking station. Like 
fingerprinting, photographing, and other booking procedures which at 
the time were novel but have now become routine, Rapid DNA will soon be 
standard procedure in police stations throughout the country.
    There is only one problem with Rapid DNA technology-- Federal Law. 
Our law, written in 1994 when DNA technology was still in its infancy, 
prohibits the use of Rapid DNA technology in booking stations. This is 
not because of any limitation in Rapid DNA technology, but simply 
because at the time, Rapid DNA technology was not even contemplated. 
Like the Record, leading to the Cassette, leading to the MP3 player, 
technology moves quicker than we can legislate. Now is the time to 
change the law to permit Rapid DNA technology.
    Rapid DNA machines are compact, approximately the size of copy 
machines, and can provide a DNA analysis from a cheek swab sample of an 
arrestee within 2 hours. This has two profound implications. First, 
arrestees may be exonerated of crimes in 2 hours, rather than waiting 
for up to 72 hours for release, or months for more standard DNA 
testing. Second, those arrested for a crime, can quickly be matched to 
other unsolved crimes where there was forensic evidence left at the 
crime scene, but for which there is no identified suspect.
    Finally, I believe that Rapid DNA can reduce the backlog we see in 
forensic DNA analysis. This committee has spent a great deal of time 
and significant work to try and reduce the forensic DNA backlog, 
especially in so called `rape kits.' Rapid DNA could not at this time 
be use for Rape Kits, but the implementation of Rapid DNA will allow 
forensics labs to focus on forensic samples, not on identification 
samples which can easily be handled by Rapid DNA machines. I hope this 
will reduce the Rape Kit backlog which will also prevent future rapes 
from happening.
    It is time for Congress to discuss this technology and its usage, 
and how to implement Rapid DNA in a manner that aids law enforcement 
with their DNA backlogs. The time is now to reform and modernize this 
crucial component of a criminal investigation, and it is time for our 
Federal Government to catch up to technological advancements.

                                <F-dash>

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
 in Congress from the State of Michigan, and Ranking Member, Committee 
                            on the Judiciary
    Today's hearing focuses on H.R. 320, the ``Rapid DNA Act,'' a bill 
that provides for the use of machines to quickly analyze DNA samples of 
arrestees in police custody to determine if they match DNA samples 
related to unsolved crimes.
    I support this proposal, which allows these machines to do work 
that previously had to be performed in a more time-consuming matter by 
forensic labs, whose resources are better allocated towards eliminating 
the backlog of DNA samples already collected and sitting in warehouses. 
I have several observations to make about how reducing this backlog 
will serve the goals of all concerned.
    First, although this Committee worked to reauthorize the Debbie 
Smith Act last Congress, there is still an unacceptable backlog of DNA 
samples waiting to be tested. National estimates repeatedly highlight 
that hundreds of thousands of DNA samples go untested each year.
    As the benefits of DNA technology have become more widely 
understood and available, police departments and federal law 
enforcement have increased their collection of DNA samples.
    Consequently, the backlog continues to be a persistent problem, 
which hinders our first goal, identifying the guilty. The longer it 
takes to identify a violent offender, the greater the risk posed to 
future victims.
    For example, one of our witnesses today, Ms. Natasha Alexenko, who 
heads Natasha's Justice Project, will describe how her attacker was 
ultimately caught and proven guilty, using DNA evidence, 14 years after 
she suffered unthinkable abuse.
    Rapid DNA plays a part by allowing for quicker data entry, which 
facilitates quicker matches of offenders to evidence collected at crime 
scenes. This decreases the opportunity for violent criminals to pose 
continuing threats to our communities.
    Also, the DNA backlog undermines the use of DNA testing to 
eliminate innocent persons as suspects. If law enforcement agencies 
cannot effectively rely on the timely use of DNA technology, they waste 
scarce investigative resources pursuing innocent people.
    It is important to note that, when an innocent person is accused of 
committing criminal offenses his or her life can become a frightening 
existence.
    In addition to the real threat of imprisonment, an innocent person 
is at risk of losing his job, home, as well as the support of family 
and friends.
    Finally, the backlog compromises our ability to exonerate the 
wrongfully convicted. To-date, more than 300 people, including 20 who 
served time on death row, have been exonerated as a result of DNA 
testing.
    The good news is that reform is underway. For example, in major 
cities throughout the United States we are seeing sexual assault kits 
being tested at increased rates.
    For instance, after Detroit discovered 11,341 untested rape kits 
within its jurisdiction, the city of Detroit made a commitment to test 
every single kit.
    As of June 2015, that commitment has resulted in 1,467 DNA matches 
and the identification of 326 potential serial rapists. Additionally, 
the Wayne County Prosecutor's Office has successfully obtained 15 
convictions; while six other suspects currently await trial. DNA from 
the tested rape kits in Detroit have been linked to crimes committed in 
31 states and the District of Columbia. I know that the Prosecutor is 
making every effort to follow up on these DNA matches in order to hold 
perpetrators accountable and vindicate the interests of the victims.
    The authorization to use Rapid DNA technology will therefore lead 
to a number of important benefits for law enforcement, crime victims, 
and the innocent. I look forward to the testimony of our witnesses who 
will provide more details about the bill and these benefits.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
